App. 1
APPENDIX A
NOTE:

This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

DARYL R. BLANTON,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
-----------------------------------------------------------------------

2019-2009
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 17-3138, Judge Michael P.
Allen.
-----------------------------------------------------------------------

Decided: August 3, 2020
-----------------------------------------------------------------------

KENNETH M. CARPENTER, Law Ofﬁces of Carpenter
Chartered, Topeka, KS, argued for claimant-appellant.
ERIC LAUFGRABEN, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, argued for respondent-appellee.
Also represented by ETHAN P. DAVIS, ROBERT EDWARD
KIRSCHMAN, JR., LOREN MISHA PREHEIM; BRIAN D.
GRIFFIN, JONATHAN KRISCH, Ofﬁce of General Counsel,

App. 2
United States Department of Veterans Affairs, Washington, DC.
-----------------------------------------------------------------------

Before REYNA, SCHALL, and STOLL, Circuit Judges.
SCHALL, Circuit Judge.
DECISION
Daryl R. Blanton appeals the March 14, 2019 decision of the United States Court of Appeals for Veterans Claims (“Veterans Court”) in Blanton v. Wilkie, No.
17-3138, 2019 WL 1177988 (Vet. App. Mar. 14, 2019).
In that decision, the Veterans Court afﬁrmed the May
24, 2017 decision of the Board of Veterans’ Appeals
(“Board”) that denied Mr. Blanton an effective date earlier than April 14, 1998, for a grant of service connection for a nervous condition. J.A. 115. The Board did
so because it found no clear and unmistakable error
(“CUE”) in the February 6, 1997 rating decision that
denied Mr. Blanton service connection for the condition. Id. For the reasons stated below, we afﬁrm.
DISCUSSION
I.
In its decision, the Veterans Court held that Mr.
Blanton had failed to demonstrate error in the Board’s
ﬁnding that Mr. Blanton had not shown CUE in the
1997 rating decision under the standard set forth in
Russell v. Principi, 3 Vet. App. 310, 313–14 (1992) (en

App. 3
banc). The Veterans Court recited the standard as follows:
CUE is established when (1) either the correct
facts as they were known at the time were
not before the adjudicator, the adjudicator
made an erroneous factual finding, or the
statutory or regulatory provisions extant at
the time were incorrectly applied; (2) the alleged error is “undebatable,” rather than a
mere “disagreement as to how the facts were
weighed or evaluated”; and (3) the error “manifestly changed the outcome” of the decision.
Blanton, 2019 WL 1177988, at *2 (footnote omitted)
(quoting Russell, 3 Vet. App. at 313–14, 319).
II.
On appeal, Mr. Blanton makes two arguments. His
main argument is that “the decision of the Veterans
Court to affirm the Board’s adverse CUE decision is
erroneous because it relied upon a misinterpretation
of the plain language of the predicate [CUE] statute,
38 U.S.C. § 5109A.” Appellant’s Br. 4. The basis for this
argument is Mr. Blanton’s claim that the CUE standard set forth in Russell no longer should be followed
because it was dicta and lacks support in the statute.
Id. at 4–5, 7–25.
We need not decide, however, whether Russell’s
articulation of the requirements for establishing CUE
was dicta. The reason is that this court has adopted the

App. 4
Russell test as controlling law. In Cook v. Principi, 318
F.3d 1334, 1345 (Fed. Cir. 2002) (en banc), we stated:
We conclude that decisions of this court and
the Veterans Court concluding that a clear
and unmistakable error at the [Regional Ofﬁce (“RO”)] level must be outcome determinative and must be apparent from the evidence
of record at the time of the original decision
are supported by the language of 38 U.S.C.
§ 5109A and its legislative history. We therefore reject Mr. Cook’s request that we overturn existing law to that effect.
Id. (footnote omitted); see also Morris v. Shinseki, 678
F.3d 1346, 1351 (Fed. Cir. 2012); Willsey v. Peake, 535
F.3d 1368, 1371 (Fed. Cir. 2008); Natali v. Principi, 375
F.3d 1375, 1382 (Fed. Cir. 2004).
At oral argument, counsel for Mr. Blanton acknowledged that, as a panel, we are bound by the en
banc precedent of Cook. Oral Arg. at 10:05–11:09,
http://oralarguments.cafc.uscourts.goy/default.aspx?f1=
19-2009.mp3. He also acknowledged that, for that reason, in order for Mr. Blanton to succeed in his appeal,
the full court would have to reconsider Cook en banc
and overrule it. Id. As a panel, we could recommend
that course of action. See Federal Circuit Rule
35(a)(1); Henderson v. Shinseki, 589 F.3d 1201, 1203
(Fed. Cir. 2009), rev’d, 562 U.S. 428 (2011). We decline
to do so, however. In Cook, we expressly stated that
we did not think a change with respect to the requirements for establishing CUE was “warranted.” 318 F.3d
at 1344.

App. 5
III.
Mr. Blanton’s second argument on appeal is that,
even if the Russell test remains controlling law, we still
should reverse the decision of the Veterans Court. In
making this argument, Mr. Blanton states that the
Veterans Court “erroneously afﬁrmed the Board’s adverse decision based on its misinterpretation of the
speciﬁcity required to allege CUE” as set out in Fugo v.
Brown, 6 Vet. App. 40 (1993). Appellant’s Br. 25. What
we understand Mr. Blanton to be referring to is the
Veterans Court’s ruling that it would not consider a
new argument in support of his theory that in 1997
the RO misapplied the presumption of soundness. The
purported new argument was that a laceration on Mr.
Blanton’s arm was an in-service manifestation of a
mental disorder. In rejecting the argument, the court
stated, “Appellant has not shown with the requisite
degree of speciﬁcity that this argument was asserted
before the Board as a reason that there was CUE in
the 1997 RO decision based on a misapplication of the
presumption of soundness.” 2019 WL 1177988, at *3.
Mr. Blanton’s second argument rests on a challenge to the Veterans Court’s application of the law
of issue exhaustion to the facts of his case. It thus
amounts to an argument that is beyond the scope of
our jurisdiction. See Scott v. Wilkie, 920 F.3d 1375,
1377–78 (Fed. Cir. 2019) (reciting jurisdictional limitations on Federal Circuit review of Veterans Court decisions). We therefore cannot consider it.

App. 6
CONCLUSION
For the foregoing reasons, the decision of the Veterans Court afﬁrming the decision of the Board is afﬁrmed.
AFFIRMED

App. 7
APPENDIX B
Designated for electronic publication only
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
No. 17-3138
DARYL R. BLANTON, APPELLANT,
V.

ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS, APPELLEE
Before ALLEN, Judge.
MEMORANDUM DECISION
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
ALLEN, Judge: Appellant Daryl R. Blanton served
the Nation honorably on active duty in the United
States Army from May 1990 to May 1994.1 He appeals
a May 24, 2017, Board of Veterans’ Appeals decision
denying an effective date earlier than April 14, 1998,
for a grant of service connection for a nervous condition because it found no clear and unmistakable error
(CUE) in a February 1997 rating decision that denied
service connection for that condition. The question in
this appeal, which is timely and over which the Court
has jurisdiction,2 is whether in ﬁnding no CUE in the
February 1997 decision, the Board misapplied the law
pertaining to the presumption of soundness and the
1
2

Record (R.) at 1147.
See 38 U.S.C. §§ 7266(a), 7252(a).

App. 8
line-of-duty presumption. Because the Board’s decision
was not arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law, the Court afﬁrms.
I. PROCEDURAL BACKGROUND AND FACTS
In April 1994, while on active duty, appellant was
treated for a self-induced laceration to his right arm.3
At that time, appellant stated he was trying to commit
suicide.4 In October 1996, he ﬁled a claim for service
connection for a psychiatric disorder.5 VA treatment
records at that time noted his in-service suicide attempt and also that he had suicidal ideation and hallucinations when he was in high school.6 In a February
1997 rating decision, the regional ofﬁce (RO) denied
service connection for a nervous condition, ﬁnding that
his condition “existed prior to service” and that there
was “no evidence that the condition permanently worsened as a result of service.”7 Appellant did not appeal
this decision and it became ﬁnal.
In April 1998, he sought to reopen his claim for
service connection for a psychiatric condition.8 The RO
again denied the claim, but this time appellant ﬁled an
appeal. In a July 2004 rating decision, the RO granted
3
4
5
6
7
8

R. at 226.
Id.
R. at 1297-1300.
R. at 1177.
R. at 1150.
R. at 1141.

App. 9
service connection for a schizoaffective disorder, based
on a VA examiner’s opinion that appellant’s time in
the military exacerbated his prior symptoms. He was
awarded a 100% disability rating as of April 14, 1998,
the date of his claim to reopen.9
In March 2006, appellant ﬁled a motion to reverse
or revise the February 1997 rating decision on the
grounds that it contained CUE, warranting an earlier
effective date for his psychiatric disability.10 He argued
that the 1997 decision did not consider or apply 38
U.S.C. §§ 105(a) and 1111. The motion was denied, and
ultimately appellant perfected an appeal to the Board.
The Board remanded the matter in October 2014 for
further development. The CUE motion returned to
the Board, which denied it in the decision on appeal.
The Board concluded that the RO correctly considered
the facts and law at the time of its 1997 decision. The
Board found that the presumption of soundness applied and that “it is not clear that the RO incorrectly
applied” it in the 1997 decision.11 The Board determined that the RO’s reliance on appellant’s postservice
reports of suicidal thoughts in high school supported
its ﬁnding that his condition preexisted service. Furthermore, the Board found that “the RO’s conclusions
that there was no evidence that the condition permanently worsened as a result of service could support

9

R. at 689-701.
R. at 599-606.
11
R. at 9.
10

App. 10
the RO’s ﬁnding of no aggravation.”12 The Board concluded that the RO’s evaluation of evidence “was not
necessarily at odds with the clear-and-unmistakable
standard.”13 Additionally, the Board held that any error
in the RO’s application of the presumption of soundness was not outcome determinative and thus did not
constitute CUE as an independent matter, because
there was no evidence of nexus before the RO in February 1997. Finally, the Board noted that the RO had
not misapplied section 105(a), which creates a presumption that an injury or disease occurred in the line
of duty but not a presumption of service connection, as
appellant alleges. This appeal followed.
II.

ANALYSIS

Appellant asserts four bases on which he claims
the Board erred. First, he argues that the Board erred
by misapplying the presumption of soundness in its
analysis of the 1997 rating decision because it “did not
address the actual physical injury suffered when he
lacerated his right arm.”14 Second, he claims that the
Board erred in ﬁnding clear and unmistakable evidence before the RO in February 1997 to establish that
his psychiatric condition preexisted service. Third, appellant submits that the Board’s ﬁnding that his condition was not worsened by his military service should
be reversed because the Board required evidence that
12
13
14

R. at 10.
Id.
Appellant’s Brief (Br.) at 5.

App. 11
his condition permanently worsened, which is a higher
standard than required by law. Finally, he argues that
the RO in 1997 and the Board in the decision on appeal
failed to properly apply 38 U.S.C. § 105(a) and give him
a presumption of service connection.
CUE is established when (1) either the correct
facts as they were known at the time were not before
the adjudicator, the adjudicator made an erroneous
factual ﬁnding, or the statutory or regulatory provisions extant at the time were incorrectly applied; (2)
the alleged error is “undebatable,” rather than a mere
“disagreement as to how the facts were weighed or
evaluated”; and (3) the error “manifestly changed the
outcome” of the decision.15
It is not easy to establish CUE in a ﬁnal decision.
This Court has held that an error is “undebatable”
when “ ‘reasonable minds could only conclude that the
original decision was fatally ﬂawed’ ” at the time it was
made.16 In sum, “CUE is a very speciﬁc and rare kind
of ‘error’ . . . of fact or law, that when called to the
attention of later reviewers compels the conclusion,
to which reasonable minds could not differ, that the

15

Russell v. Principi, 3 Vet.App. 310, 313-14, 319 (1992); see
Simmons v. Wilkie, 30 Vet.App. 267, 274 (2018); King v. Shinseki,
26 Vet.App. 433, 439 (2014); Bouton v. Peake, 23 Vet.App. 70, 7172 (2008); Damrel v. Brown, 6 Vet.App. 242, 245 (1994); see also
Bustos v. West, 179 F.3d 1378, 1380-81 (Fed. Cir. 1999).
16
Andrews v. Principi, 18 Vet.App. 177, 181 (2004) (quoting
Russell, 3 Vet.App. at 313-14), aff ’d sub nom. Andrews v. Nicholson, 421 F.3d 1278 (Fed. Cir. 2005).

App. 12
results would have been manifestly different but for
the error.”17
When assessing the Board’s CUE determination,
the Court “cannot conduct a plenary review of the
merits of the original decision.”18 Rather, the Court’s
overall review of a Board decision ﬁnding no CUE in a
prior, ﬁnal decision, is limited to determining whether
the Board’s ﬁnding was “arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with
law,”19 and whether it was supported by an adequate
statement of reasons or bases on all material issues of
fact and law.20 But the components of a valid CUE ﬁnding are subject to review under the standards applicable to each.21 Whether an applicable regulation was
correctly applied or interpreted is a question of law,
something the Court reviews de novo.22
The presumption-of-soundness statute, in 1997, as
today, stated:

17

Fugo v. Brown, 6 Vet.App. 40, 43 (1993).
Andrews, 18 Vet.App. at 181; see Archer v. Principi, 3
Vet.App. 433, 437 (1992).
19
38 U.S.C. § 7261(a)(3)(A).
20
38 U.S.C. § 7104(d)(1); see Cacciola v. Gibson, 27 Vet.App.
45, 59 (2014); King, 26 Vet.App. at 439.
21
Simmons, 30 Vet.App. at 274-75; Hopkins v. Nicholson, 19
Vet.App. 165, 167-68 (2005).
22
Simmons, 30 Vet.App. at 275; Hopkins, 19 Vet.App. at 168;
see also George v. Shulkin, 29 Vet.App. 199, 206 (2018); Stallworth
v. Nicholson, 20 Vet.App. 482, 487 (2006); Joyce v. Nicholson, 19
Vet.App. 36, 43-44 (2005); Andrews, 18 Vet.App. at 182.
18

App. 13
[E]very veteran shall be taken to have been
in sound condition when examined, accepted,
and enrolled for service, except as to defects,
inﬁrmities, or disorders noted at the time of
the examination, acceptance, and enrollment,
or where clear and unmistakable evidence
demonstrates that the injury or disease existed before acceptance and enrollment and
was not aggravated by such service.23
The implementing regulation provided that “[o]nly
such conditions as are recorded in examination reports
are to be considered as noted.”24 Thus, one must ﬁrst
determine whether the presumption of soundness applies in a given situation. If it does, then one moves on
to whether that presumption has been rebutted. The
rebuttal portion of the analysis has two parts: (1) Did
the condition exist before service and (2) was that condition not aggravated by such service?
The presumption of service incurrence, also called
the “presumption of service connection” or the “line-ofduty presumption,” under 38 U.S.C. § 105(a) establishes that an injury or disease incurred during active
service was incurred in the line of duty and was not
the result of misconduct.25 The presumption of service
incurrence serves as a shield against any assertion
by the Secretary that a veteran’s in-service injury or
23

38 U.S.C. § 1111 (1997).
38 C.F.R. § 3.304(b) (1997).
25
38 U.S.C. § 105(a) (1997); see Holton v. Shinseki, 557 F.3d
1362, 1366-67 (Fed. Cir. 2009); Dye v. Mansﬁeld, 504 F.3d 1289,
1292 (Fed. Cir. 2007).
24

App. 14
disease was not in the line of duty or was caused by
the veteran’s willful misconduct or abuse of alcohol or
drugs.26 Also, the presumption of service incurrence is
triggered by evidence of an in-service injury or disease.27 Most importantly, once the presumption applies
and the Secretary is unable to rebut it, the injury or
disease that manifested during service is presumed to
have been incurred during service, satisfying the second element of service connection.28 In some ways, the
presumption of service incurrence operates similarly
to the way the presumption of soundness operates,
where we turn ﬁrst.
A.

Physical Manifestation

Appellant’s argument regarding the right arm
laceration that resulted from his in-service suicidal attempt is unclear at best. Although he asserts that he is
raising an issue of ﬁrst impression before the Court, he
does not clearly identify what that issue is. Thus, the
Court holds that, to the extent it can decipher appellant’s argument, it is appropriately addressed by a
single judge and does not require a precedential decision.29
First, the Secretary argues that the Court lacks
jurisdiction to consider appellant’s argument based
on the physical manifestation of his suicide attempt
26
27
28
29

See Holton, 557 F.3d at 1367.
See id.
See id.; Dye, 504 F.3d at 1292.
See Frankel v. Derwinski, 1 Vet.App. 23, 25-26 (1990).

App. 15
because it is a distinct theory of CUE appellant did
not raise below.30 If that were so, the Secretary would
be correct that the Court would lack jurisdiction to address the theory.31 However, the Court agrees with appellant that this is not a new theory of CUE but rather
an argument supporting the theory he unquestionably
raised concerning the presumption of soundness. Thus,
there is no jurisdictional bar to proceeding.
But there is a separate problem even if we treat
the “physical manifestation” point as an argument instead of a distinct theory of CUE. Appellant has not
shown with the requisite degree of speciﬁcity that this
argument was asserted before the Board as a reason
that there was CUE in the 1997 RO decision based on
a misapplication of the presumption of soundness.32 As
far as we can tell, in fact, appellant never mentioned
this aspect of his argument until his opening brief on
appeal to this Court. In such situations, the Court has
discretion to hear a newly raised argument but it is
not required to do so.33 In exercising its discretion, the
Court considers “whether the interests of the individual weigh heavily against . . . institutional interests”
such as “to protect agency administrative authority and
to promote judicial efﬁciency.”34

30

Secretary’s Br. at 13-14.
See Jarrell v. Nicholson, 20 Vet.App. 326, 330-32 (2006)
(en banc).
32
See Fugo, 6 Vet.App. at 44.
33
See Maggitt v. West, 202 F.3d 1370, 1377 (Fed. Cir. 2000).
34
Id.
31

App. 16
In this case, the balance cuts against exercising
discretion to consider this newly minted argument. To
begin with, the Board is given wide latitude when making CUE determinations. Allowing arguments in the
context of such deferential review to be presented ﬁrst
to the Court undercuts the discretion vested in the
Board. Moreover, appellant’s argument is extremely
confusing and undeveloped. This makes it difficult
for the Secretary to respond in a meaningful way as
well as for the Court to efficiently exercise judicial
review. We have held that such underdevelopment independently allows the Court to decline to address an
argument.35 These concerns lead the Court to decline
to exercise its discretion to address the newly raised
physical-manifestation argument in this appeal.
B.

Preexistence Prong

Appellant’s next arguments turn to rebutting the
presumption of soundness, which all agree attached
at the time of appellant entered into service. Appellant
ﬁrst argues that the February 1997 decision “offered
no reasons or bases” for its “implicit determination
that the presumption of soundness had been rebutted.”36 However, any reasons-or-bases error by the RO
cannot constitute CUE.37 Next, he argues that the
35

Coker v. Nicholson, 19 Vet.App. 439, 442 (2006), rev’d on
other grounds sub nom. Coker v. Peake, 310 F. App’x 371 (Fed.
Cir. 2008) (per curiam order); see Locklear v. Nicholson, 20
Vet.App. 410, 416-17 (2006).
36
Appellant’s Br. at 8.
37
Fugo, 6 Vet.App. at 43-44.

App. 17
Board erred because “the record did not include clear
and unmistakable evidence that [he] suffered from a
preexisting psychiatric disease.”38 This argument also
fails because as the Board correctly noted, an error in
the weight afforded the evidence by the RO does not
rise to the level of CUE.39
The Board found that “it was within the province
of the RO, and consistent with [the clear-and-unmistakable evidentiary] standard, to conclude that [appellant’s] post-service reports of having suicidal ideation
. . . in high school supported a ﬁnding of a pre-existing
condition.”40 Although appellant spends several paragraphs trying to convince the Court that we review the
Board’s ﬁnding de novo and that the Board was required to consider the RO decision de novo, he presents
no evidence to support his contention that the Board
erred. In other words, appellant points to no evidence
that runs counter to the Board’s determination that
the RO appropriately relied on postservice treatment
records noting that his condition preexisted service.41
The Court therefore cannot hold that the Board’s ﬁnding of no CUE as to this matter was arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law.

38
39
40
41

Appellant’s Br. at 9.
See Russell, 3 Vet.App. at 313-14.
R. at 10.
See Hilkert v. West, 12 Vet.App. 145, 151 (1999) (en banc).

App. 18
C.

Aggravation Prong

With respect to appellant’s argument that the aggravation prong of the presumption of soundness was
not met, on January 4, 2019, the Court ordered the parties to address the effect of a precedential decision issued in George v. Wilkie.42 In that case, the Court held
that the interpretation of the presumption of soundness extending the clear-and-unmistakable-evidence
standard to the aggravation prong does not apply retroactively for CUE purposes.
Here, the Board erroneously required, to rebut the
presumption of soundness, clear and unmistakable
evidence that appellant’s condition did not worsen.43
The Board found “the RO’s conclusion that there was
no evidence that the condition permanently worsened
as a result of service could support the RO’s ﬁnding of
no aggravation under the clear-and-unmistakable evidence standard.”44 The Board’s use of the wrong standard is harmless in this regard because it placed a
higher burden on VA—clear and unmistakable evidence of no worsening—and still found that burden
was met because there was no evidence of worsening.
Thus, it follows that, under George, a ﬁnding of no evidence of worsening would meet a standard less strenuous than clear and unmistakable evidence.
Appellant argues that both the Board in the decision on appeal and the RO in the February 1997 rating
42
43
44

30 Vet.App. 364 (2019).
R. at 9.
R. at 10.

App. 19
decision required evidence of “permanent worsening”
to rebut the presumption of soundness at the aggravation prong, which imposed a higher burden on him.
Although it is true that the aggravation prong does not
require permanent worsening, once again appellant
has failed to meet his burden of demonstrating prejudicial error.45 The RO relied on a complete lack of evidence that his condition had worsened, and appellant
does not point to anything that was left out of that
analysis.46
D.

38 U.S.C. § 105(a)

Appellant argues that the Board misapplied 38
U.S.C. § 105(a) in ﬁnding no CUE in the February 1997
RO decision. He asserts that he was entitled to a “presumption of service connection,” namely that “such a
suicide attempt was the product of [his] mental unsoundness.”47 In its decision, the Board speciﬁcally addressed section 105(a) and found it “did not provide
for a presumption of service connection but instead deﬁned the circumstances in which an injury or disease

45

Shinseki v. Sanders, 556 U.S. 396, 409 (2009).
The Court notes that the Board also concluded that even if
there was error in the 1997 decision concerning rebuttal of the
presumption, the error would not have been outcome determinative. See R. at 10-11. This is an independent basis on which to
conclude that the 1997 decision did not contain CUE. See Simmons,
30 Vet.App. at 277-78. The Court reviews such a determination
under the arbitrary and capricious standard. Id. at 278. The
Board’s assessment passes muster under this standard.
47
Appellant’s Br. at 14-15.
46

App. 20
would be deﬁned as occurring in the line of duty.”48
Thus, the Board found that the RO had not incorrectly
applied the statute.
Appellant misunderstands the law under section
105(a). Although he cites Holton v. Shinseki as holding
that section 105(a) creates a presumption of service
connection, that case makes clear that the presumption goes to the second element of service connection:
an in-service event. Here, neither the RO nor the
Board disputes the fact that appellant attempted suicide while in service and neither the 1997 rating decision nor the Board decision on appeal contends that
the suicide attempt did not occur in the line of duty.
Thus, the Court cannot discern what appellant argues
as to how the Board misapplied the law, as his argument is underdeveloped.49
III.

CONCLUSION

After consideration of the parties’ briefs and a
review of the record, the Court AFFIRMS the May 24,
2017, Board decision.
DATED: March 14, 2019
Copies to:
Kenneth M. Carpenter, Esq.
VA General Counsel (027)
48
49

R. at 11.
Locklear, 20 Vet.App. at 416-17; Coker, 19 Vet.App. at 442.

App. 21
APPENDIX C
BOARD OF VETERANS’ APPEALS
DEPARTMENT OF VETERANS AFFAIRS
WASHINGTON, DC 20420
IN THE APPEAL OF
DARYL R. BLANTON
DOCKET NO. 10-47 002A ) DATE
)
)

May 24, 2017
[/s/ TDG]

On appeal from
the Department of Veterans Affairs Regional Office
in Houston, Texas
THE ISSUE
Whether clear and unmistakable error (CUE) was
committed in a February 1997 rating that denied service connection for a nervous condition, such that an
earlier effective date of service connection for schizoaffective disorder is warranted.
REPRESENTATION
Appellant represented by: Kenneth Carpenter, Attorney
ATTORNEY FOR THE BOARD
Devon Rembert-Carroll, Associate Counsel

App. 22
INTRODUCTION
The Veteran had active service from May 1990 to May
1994.
This matter comes before the Board of Veterans’ Appeals (Board) on appeal from an April 2008 rating
decision of the Department of Veterans Affairs (VA) Regional Ofﬁce (RO) in Houston, Texas.
In an October 2014 decision, the Board remanded the
appeal for further development.
FINDINGS OF FACT
1. In a ﬁnal decision issued in February 1997, the RO
denied the Veteran’s claim of entitlement to service
connection for a nervous condition.
2. The February 1997 rating decision was consistent
with, and reasonably supported by, the evidence then
of record and the existing legal authority, and it did not
contain undebatable error that would have manifestly
changed the outcome.
CONCLUSION OF LAW
Clear and unmistakable error has not been shown in
the February 1997 rating decision. 38 U.S.C.A. § 5109A
(West 2014); 38 C.F.R. § 3.105(a) (2016).

App. 23
REASONS AND BASES FOR
FINDINGS AND CONCLUSION
Duties to Notify and Assist
VA has a duty to provide the Veteran notiﬁcation of the
information and evidence necessary to substantiate
the claim submitted, the division of responsibilities in
obtaining evidence, and assistance in developing evidence, pursuant to the Veterans Claims Assistance Act
of 2000 (VCAA). However, in Livesay v. Principi, 15 Vet.
App. 165 (2001), the Court held that “there is nothing
in the text or the legislative history of VCAA to indicate that VA’s duties to assist and notify are now, for
the ﬁrst time, applicable to CUE motions.” The Court
in Livesay held that CUE claims are not conventional
claims, but rather are requests for revisions of previous
decisions. Thus, a “claimant,” as deﬁned by 38 U.S.C.A.
§ 5100, cannot encompass a person seeking a revision
of a ﬁnal decision based upon CUE. As a consequence,
VA’s duties to notify and assist contained in the VCAA
are not applicable to the Veteran’s CUE claim.
Additionally, the Board finds that the RO has substantially complied with the October 2014 remand
directives which included providing information regarding what is needed to prove CUE and giving the
Veteran the opportunity to clarify which rating decision he was claiming contained CUE. See Stegall v.
West, 11 Vet. App. 268 (1998); see also Dyment v. West,
13 Vet. App. 141 (1999) (holding that another remand is not required under Stegall where the Board’s

App. 24
remand instructions were substantially complied with),
aff ’d, Dyment v. Principi, 287 F.3d 1377 (2002).
The Board thus ﬁnds that all necessary development
has been accomplished and appellate review may proceed. See Bernard v. Brown, 4 Vet. App. 384 (1993).
Analysis
The Board notes that on remand, the Veteran’s representative clariﬁed that the Veteran was only alleging
CUE in the February 1997 rating decision. See August
2015 representative statement. In this regards, the
Veteran essentially contends that the absence of any
notation of a defect or disorder on the Veteran’s
enlistment examination entitled the Veteran to the
benefit of the presumption of soundness under 38
U.S.C. § 1111. The Veteran also contends that the VA
failed to consider and properly apply 38 U.S.C. § 105(a)
and 1111. See March 2006 CUE claim and August 2015
representative statement.
On October 15, 1996, the Veteran ﬁled a claim for a
nervous condition. In a February 1997 rating decision,
the RO denied entitlement to service connection for a
nervous condition. The Veteran was notiﬁed of this decision by way of a letter dated February 10, 1997. The
Veteran did not appeal that rating decision and no additional evidence pertinent to the issue was physically
or constructively associated with the claims folder
within one year of the rating decision. See 38 C.F.R.
§ 3.156(b) (2016); Bond v. Shinseki, 659 F.3d 1362 (Fed.
Cir. 2011); see also Buie v. Shinseki, 24 Vet. App. 242,

App. 25
251-52 (2010). Thus the February 1997 rating decision became final based on the evidence then of
record. 38 U.S.C.A. § 7105 (West 2014); 38 C.F.R.
§ 20.1103 (2016).
A previous determination which is ﬁnal and binding
will be accepted as correct in the absence of CUE.
Where evidence establishes such error, the prior decision will be reversed. For the purpose of authorizing
beneﬁts, a rating or other decision that constitutes a
reversal of a prior decision on the grounds of CUE has
the same effect as if the decision had been made on the
date of the prior decision. 38 U.S.C.A. § 5109A; 38
C.F.R. § 3.105(a).
CUE is a very speciﬁc and rare kind of error. It is the
kind of error of fact or of law that when called to the
attention of later reviewers compels the conclusion to
which reasonable minds could not differ that the result
would have been manifestly different but for the error.
Even where the premise of error is accepted, if it is not
absolutely clear that a different result would have ensued, the error complained of cannot be CUE. Fugo v.
Brown, 6 Vet. App. 40, 43-44 (1993).
There is a three-part test to determine whether a prior
decision was based on CUE: (1) either the correct
facts, as the facts were known at the time, were not
before the adjudicator or the statutory or regulatory
provisions extant at the time were incorrectly applied;
(2) the error must be “undebatable” and of the sort
which, had the error not been made, the outcome would
have changed; and (3) a determination that there was

App. 26
CUE must be based on the record and law that existed
at the time of the prior adjudication. See Damrel v.
Brown, 6 Vet. App. 242, 245 (1994) (quoting Russell v.
Principi, 3 Vet. App. 310, 313-14 (1992) (en banc)).
Simply to claim clear and unmistakable error on the
basis that the previous adjudication improperly weighed
and evaluated the evidence can never rise to the stringent deﬁnition of clear and unmistakable error, nor can
broad-brush allegations of “failure to follow the regulations” or “failure to give due process,” or any other
general, non-speciﬁc claim of “error” meet the restrictive deﬁnition of clear and unmistakable error. Fugo, 6
Vet. App. 40, 44. Additionally, the failure to fulﬁll the
duty to assist cannot be CUE. 38 C.F.R. § 20.1104
(2016); Baldwin v. West, 13 Vet. App. 1, 5 (1999).
The evidence of record at the time of the February 1997
rating decision included the Veteran’s service treatment records and post-service VA treatment records
dated September 1996 to December 1996.
The Veteran’s August 1989 enlistment report of medical examination shows that the Veteran’s psychiatric
was noted as normal. There were no noted defects or
diagnoses. The Veteran’s August 1989 enlistment report of medical history shows that the Veteran denied
frequent trouble sleeping, depression or excessive
worry and nervous trouble of any sort.
The Veteran’s March 1994 separation report of medical
examination shows that the Veteran’s psychiatric
was noted as normal. On his March 1994 separation
report of medical history the Veteran reported frequent

App. 27
trouble sleeping and depression or excessive worry. It
was noted that the Veteran had depression and denied
suicidal or homicidal ideations. It was also noted that
the Veteran had an upcoming appointment with community mental health on March 30, 1994.
An April 1994 service treatment record shows that the
Veteran was treated for a self-induced cut to the right
arm. The Veteran reported that he tried to commit suicide that morning The Veteran reported that he tried
to commit suicide two weeks prior. It was noted that
this was not discovered but the Veteran had a cut on
the left forearm. The Veteran was diagnosed with a
suicide attempt and a laceration to the right arm. An
undated health assessment shows that the Veteran reported that in the prior year he sometimes experienced
repeated or long periods of depression.
Post-service VA treatment records dated September
1996 to January 1997 reveal a September 1996 VA
treatment record that shows that the Veteran reported
that he had been feeling depressed on and off for about
two years. An October 1996 VA treatment record that
shows that the Veteran was diagnosed with major depression, recurrent, with psychotic features, a history
of cocaine and alcohol abuse and rule out chronic psychotic disorder. A December 1996 VA treatment record
shows that the Veteran was diagnosed with substance
abuse disorder and mixed personality disorder. Another December 1996 VA treatment record shows that
the Veteran reported he had suicidal ideation and experienced derogatory auditory hallucinations even
when he was in high school. He reported that he was

App. 28
hospitalized for two months, which he did not mention
when he was inducted. The Veteran reported that he
felt that he did well in the service until his last six
months where he described paranoia and hallucinations aggravated by alcohol and drug abuse. Another
December 1996 VA treatment record shows that the
Veteran was admitted to the ICU following an overdose of psychiatric medication. The discharge diagnosis was possible schizoaffective disorder and a history
of polysubstance abuse.
As noted above, in the February 1997 rating decision,
the RO denied entitlement to service connection for a
nervous condition. The RO noted the above evidence
and concluded that the Veteran’s condition neither occurred in nor was caused by service. The RO noted that
the evidence showed that nervous condition existed
prior to service. The RO also noted that there was no
evidence that the condition permanently worsened as
a result of service.
With regard to the first element of the CUE test, the
Board finds that the correct facts as they were known
at the time were considered in the February 1997
rating decision. In this regards the only evidence
then of record included the Veteran’s service treatment records and post-service VA treatment records
dated September 1996 to December 1996. The Board
acknowledges that in the March 2006 claim, the Veteran’s representative discussed pre-service private
treatment records dated June 1987 to May 1989. However, these records were not received by the RO until
September 2000. Therefore, these records cannot be

App. 29
considered in determining whether there was CUE in
the February 1997 rating decision. Additionally, as far
as any assertion that the RO should have obtained
such records at the time of the February 1997 rating
decision, the Board again notes that the failure to fulﬁll the duty to assist does not constitute CUE.
Having established that the correct facts were considered by the RO, the other issue that must be addressed
with regard to the ﬁrst element of the test is whether
the law at the time was correctly applied. For the following reasons, the Board ﬁnds that it was.
At the time of the February 1997 rating decision, service connection was warranted for a particular injury
or disease resulting in disability that was incurred
coincident with service in the Armed Forces, or if
preexisting such service, was aggravated therein. 38
U.S.C.A. § 1110; 38 C.F.R. § 3.303 (1997). Additionally,
the law stated the veteran will be considered to have
been in sound condition when examined, accepted and
enrolled for service, except as to defects, inﬁrmities, or
disorders noted at entrance into service, or where clear
and unmistakable (obvious or manifest) evidence
demonstrates that an injury or disease existed prior
thereto and was not aggravated by such service. Only
such conditions as are recorded in examination reports
are to be considered as noted. 38 C.F.R. §1111; 38
U.S.C.A. § 3.304.
In this case, the presumption of soundness does apply,
as the Veteran’s psychiatric was noted as normal on

App. 30
entrance and there were no notations of any defects or
disorders on entrance examination.
The Federal Circuit clariﬁed in Wagner v. Principi, 370
F.3d 1089 (Fed. Cir. 2004) that the presumption of
soundness under 38 U.S.C.A. § 1111 is rebutted only
if there is both (1) clear and unmistakable evidence
that the claimed condition existed prior to service and
(2) clear and unmistakable evidence that any preexisting conditions were not aggravated by service.
The Board notes that at the time of the February 1997
rating decision, it was generally not VA’s interpretation of the statute that the “clear and unmistakable”
evidence standard applied to the issue of aggravation.
It was only in Wagner, discussed above, which was issued in 2004, that the Federal Circuit held that based
on the express terms of section 1111 the clear and unmistakable standard applied both to the issue of
whether a disability pre-existed active service, and to
the issue of whether it was aggravated by service. As
noted above, CUE cannot be found in a decision that
correctly applies the law that existed at the time. See
Damrel, 6 Vet. App. at 245; cf. 38 C.F.R. § 20.1403(e)
(2016) (providing that CUE in a Board decision does
not include the otherwise correct application of a statute or regulation where, subsequent to that decision,
there has been a change in the interpretation of that
statute or regulation).
However, the Federal Circuit held that its interpretation of section 1111 in the Wagner opinion was retroactive in that the interpretation of a statute explains

App. 31
“what the statute has meant since the date of enactment.” See Patrick v. Shinseki, 668 F.3d 1325, 1329
(Fed. Cir. 2011) (quoting Patrick v. Nicholson, 242
Fed.Appx. 695, 698, 2007 WL 1725465 (Fed. Cir. 2007)).
Thus, the Federal Circuit found that a 1986 Board decision (i.e. a pre-Wagner decision) which failed to apply
the clearand-unmistakable-evidence standard to the
issue of aggravation was not in accordance with the
law. See id. Therefore, the case was remanded so that
the Board could determine whether the outcome of
that decision would have been different had it applied
the correct standard. See id. Accordingly, the clear-andunmistakable-evidence standard applied to the issue
of aggravation at the time of the RO’s February 1997
rating decision.
Here, it is not clear that the RO incorrectly applied the
presumption of soundness in the February 1997 rating
decision. The Board notes that the decision does not
speciﬁcally use the words “clear and unmistakable evidence”. As noted above, the RO instead stated that the
evidence showed that the nervous condition existed
prior to service and that there was no evidence that the
condition permanently worsened as a result of service.
Nonetheless, the Board ﬁnds that even under the clearand-unmistakable evidentiary standard, it was within
the province of the RO, and consistent with such standard, to conclude that the Veteran’s post-service reports
of having suicidal ideation and experiencing derogatory auditory hallucinations in high school supported
a ﬁnding of a pre-existing condition under the clearand-unmistakable evidence standard. Likewise, with

App. 32
respect to the aggravation prong, the Board ﬁnds that
the RO’s conclusions that there was no evidence that
the condition permanently worsened as a result of service could support the RO’s ﬁnding of no aggravation
under the clear-and-unmistakable evidence standard,
even in light of the Veteran’s lay statements regarding
his in-service symptoms towards the end of his military career. Thus, the RO’s evaluation of the evidence
was not necessarily at odds with the clear-and-unmistakable standard, and mere disagreement as to how
the evidence was weighed does not amount to CUE. See
Fugo, 6 Vet. App. at 44; Russell, 3 Vet. App. at 313-14.
Finally, and in the alternative, even assuming that the
RO applied the wrong standard under the presumption of soundness, the error was not necessarily “outcome-determinative.” See Yates v. West, 213 F.3d 1372,
1374 (Fed. Cir. 2000); see also Bustos v. West, 179 F.3d
1378 (Fed. Cir. 1999). The Court has made clear that in
order for an error to manifestly change the outcome of
a claim, the law and evidence must show “undebatably” that service connection would have been awarded
but for the error. See Joyce v. Nicholson, 19 Vet. App.
36, 46 (2005) (holding that in order for a “CUE claim to
succeed,” it must be shown that the “outcome would
have been manifestly different, that is, that service
connection by aggravation would undebatably have
been awarded . . . had the RO not erred regarding the
presumption of aggravation”).
Any failure to rebut the presumption of soundness at
the time of the February 1997 rating decision does not
compel the conclusion, as to which reasonable minds

App. 33
could not differ, that the result would have been
manifestly different but for the error. In this regard,
if the presumption of soundness has not been rebutted, the disease or injury that manifested in service is
deemed incurred in service, such that the second element of service connection is established. See Gilbert
v. Shinseki, 26 Vet. App. 48, 55 (2012). Nevertheless,
the claimant must still establish a current disability
related to the in-service injury or disease. Id. As the
Court stated in Gilbert: “The presumption of soundness . . . does not relieve the veteran of the obligation
to show the presence of a current disability and to
demonstrate a nexus between that disability and the
in-service injury or disease or aggravation thereof.” Id.
(citing Holton v. Shinseki, 557 F.3d 1363, 1367 (Fed.
Cir. 2009). In other words, even if the presumption of
soundness is not rebutted, the current disability and
nexus elements of service connection must still be satisﬁed in order to establish entitlement to service connection beneﬁts. See Shedden v. Principi, 381 F.3d
1163, 1166-67 (Fed. Cir. 2004).
The medical evidence of record at the time of the February 1997 rating decision does not “compel the conclusion” that the Veteran had a current psychiatric
disability related to his symptoms during service. The
Board notes that the Veteran had an in-service notation of depression and a post-service notation of depression. In December 1996 the Veteran also reported
problems with depression for the prior two years. However, there was no positive nexus opinion of record at
the time of the February 1997 rating decision. The

App. 34
Board also notes that it was within the RO’s province
to weigh the evidence of record at the time, and any
disagreement with how that evidence was weighed and
any assertion that the RO had a duty to obtain a VA
examination are again not a basis for a valid CUE
claim.
The Board also acknowledges the representatives assertions regarding the presumption of service connection under 38 U.S.C.A. § 105(a). At the time of the
February 1997 rating decision, and now, 38 U.S.C.A.
§ 105(a) did not provide for a presumption of service
connection but instead deﬁned the circumstances in
which an injury or disease would be deﬁned as occurring in the line of duty. Therefore, the Board ﬁnds that
this statute was not incorrectly applied. In regards to
any argument concerning the presumption of aggravation under 38 U.S.C.A. § 1153: 38 C.F.R. § 3.306, the
Board ﬁnds that the RO correctly applied the law extant at the time when it noted there was no evidence
that the condition permanently worsened as a result of
service. Additionally, any disagreement with this conclusion amounts to a disagreement with how the evidence was weighed, which again cannot form the basis
of a valid CUE claim.
In light of the foregoing, the Board concludes that the
correct facts, as known at the time, were before VA adjudicators at the time of the February 1997 rating decision and that the statutory and regulatory provisions
extant at the time were correctly applied. The Board
also ﬁnds that there was no error which was undebatable and of the sort which, had it not been made would

App. 35
have manifestly changed the outcome at the time it
was made. Consequently, the Board ﬁnds that the February 1997 rating decision did not contain clear and
unmistakable error and, therefore, the Veteran’s motion to reverse that decision on the basis of CUE is denied
ORDER
CUE was not committed in the February 1997 rating
decision that denied service connection for nervous
condition; entitlement to an earlier effective date of
service connection for schizoaffective disorder on this
basis is denied.
R. FEINBERG
Veterans Law Judge,
Board of Veterans’ Appeals

App. 36
APPENDIX D
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

DARYL R. BLANTON,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
-----------------------------------------------------------------------

2019-2009
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 17-3138, Judge Michael P.
Allen.
-----------------------------------------------------------------------

ON MOTION
-----------------------------------------------------------------------

Before PROST, Chief Judge, NEWMAN, LOURIE,
SCHALL1, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
1

Circuit Judge Schall participated only in the decision on the
petition for panel rehearing.

App. 37
ORDER
Appellant Daryl R. Blanton ﬁled a petition for rehearing en banc. The petition was ﬁrst referred as a
petition for rehearing to the panel that heard the appeal, and thereafter the petition for rehearing en banc
was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied. The petition for rehearing en banc is denied.
The mandate of the court will issue on October 20,
2020.
FOR THE COURT
October 13, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner

App. 38
APPENDIX E
RELEVANT STATUTES AND REGULATIONS
38 U.S.C. § 105 (1997). Line of duty and misconduct
(a) An injury or disease incurred during active
military, naval, or air service will be deemed to have
been incurred in line of duty and not the result of the
veteran’s own misconduct when the person on whose
account beneﬁts are claimed was, at the time the injury was suffered or disease contracted, in active military, naval, or air service, whether on active duty or on
authorized leave, unless such injury or disease was a
result of the person’s own willful misconduct or abuse
of alcohol or drugs. Venereal disease shall not be presumed to be due to willful misconduct if the person
in service complies with the regulations of the appropriate service department requiring the person to report and receive treatment for such disease.
*

*

*

38 U.S.C. § 1111 (1997). Presumption of sound
condition
For the purposes of section 1110 of this title, every
veteran shall be taken to have been in sound condition when examined, accepted, and enrolled for service, except as to defects, infirmities, or disorders
noted at the time of the examination, acceptance, and
enrollment, or where clear and unmistakable evidence

App. 39
demonstrates that the injury or disease existed before
acceptance and enrollment and was not aggravated by
such service.

38 U.S.C. § 5109A (2020). Revision of decisions
on grounds of clear and unmistakable error
(a) A decision by the Secretary under this chapter is subject to revision on the grounds of clear and
unmistakable error. If evidence establishes the error,
the prior decision shall be reversed or revised.
(b) For the purposes of authorizing beneﬁts, a
rating or other adjudicative decision that constitutes a
reversal or revision of a prior decision on the grounds
of clear and unmistakable error has the same effect as
if the decision had been made on the date of the prior
decision.
(c) Review to determine whether clear and unmistakable error exists in a case may be instituted by
the Secretary on the Secretary’s own motion or upon
request of the claimant.
(d) A request for revision of a decision of the Secretary based on clear and unmistakable error may be
made at any time after that decision is made.
(e) Such a request shall be submitted to the Secretary and shall be decided in the same manner as any
other claim.

App. 40
38 C.F.R. § 3.105 (2019). Revision of decisions.
*

*

*

(a)(1) Error in ﬁnal decisions. Decisions are ﬁnal
when the underlying claim is ﬁnally adjudicated as
provided in § 3.160(d) Final decisions will be accepted
by VA as correct with respect to the evidentiary record
and the law that existed at the time of the decision, in
the absence of clear and unmistakable error. At any
time after a decision is ﬁnal, the claimant may request,
or VA may initiate, review of the decision to determine
if there was a clear and unmistakable error in the decision. Where evidence establishes such error, the prior
decision will be reversed or amended.
(i) Deﬁnition of clear and unmistakable error. A
clear and unmistakable error is a very speciﬁc and rare
kind of error. It is the kind of error, of fact or of law,
that when called to the attention of later reviewers
compels the conclusion, to which reasonable minds
could not differ, that the result would have been manifestly different but for the error. If it is not absolutely
clear that a different result would have ensued, the error complained of cannot be clear and unmistakable.
Generally, either the correct facts, as they were known
at the time, were not before VA, or the statutory and
regulatory provisions extant at the time were incorrectly applied.
(ii) Effective date of reversed or revised decisions.
For the purpose of authorizing beneﬁts, the rating or
other adjudicative decision which constitutes a reversal or revision of a prior decision on the grounds of

App. 41
clear and unmistakable error has the same effect as if
the corrected decision had been made on the date of the
reversed decision. Except as provided in paragraphs
(d) and (e) of this section, where an award is reduced
or discontinued because of administrative error or error in judgment, the provisions of § 3.500(b)(2) will apply.
(iii) Record to be reviewed. Review for clear and
unmistakable error in a prior ﬁnal decision of an
agency of original jurisdiction must be based on the evidentiary record and the law that existed when that
decision was made. The duty to assist in §3.159 does
not apply to requests for revision based on clear and
unmistakable error.
(iv) Change in interpretation. Clear and unmistakable error does not include the otherwise correct application of a statute or regulation where, subsequent
to the decision being challenged, there has been a
change in the interpretation of the statute or regulation.
(v) Limitation on Applicability. Decisions of an
agency of original jurisdiction on issues that have been
decided on appeal by the Board or a court of competent
jurisdiction are not subject to revision under this subsection.
(vi) Duty to assist not applicable. For examples of
situations that are not clear and unmistakable error
see 38 CFR 20.1403(d).

App. 42
(vii) Filing Requirements—(A) General. A request for revision of a decision based on clear and
unmistakable error must be in writing, and must be
signed by the requesting party or that party’s authorized representative. The request must include the
name of the claimant; the name of the requesting
party if other than the claimant; the applicable Department of Veterans Affairs file number; and the
date of the decision to which the request relates. If
the applicable decision involved more than one issue,
the request must identify the specific issue, or issues,
to which the request pertains.
(B) Specific allegations required. The request
must set forth clearly and specifically the alleged
clear and unmistakable error, or errors, of fact or
law in the prior decision, the legal or factual basis
for such allegations, and why the result would have
been manifestly different but for the alleged error.
Nonspecific allegations of failure to follow regulations or failure to give due process, or any other
general, non-specific allegations of error, are insufficient to satisfy the requirement of the previous sentence.
(2) Error in binding decisions prior to final adjudication. Prior to the time that a claim is finally
adjudicated, previous decisions which are binding
will be accepted as correct by the agency of original
jurisdiction, with respect to the evidentiary record
and law existing at the time of the decision, unless
the decision is clearly erroneous, after considering

App. 43
whether any favorable ﬁndings may be reversed as
provided in § 3.104(c).
*

*

*

38 C.F.R. § 3.304 (1996). Direct service connection; wartime and peacetime.
*

*

*

(b) Presumption of soundness. The veteran will
be considered to have been in sound condition when
examined, accepted and enrolled for service, except as
to defects, inﬁrmities, or disorders noted at entrance
into service, or where clear and unmistakable (obvious
or manifest) evidence demonstrates that an injury or
disease existed prior thereto. Only such conditions as
are recorded in examination reports are to be considered as noted.
(Authority: 38 U.S.C. 1111)
(1) History of preservice existence of conditions
recorded at the time of examination does not constitute
a notation of such conditions but will be considered together with all other material evidence in determinations as to inception. Determinations should not be
based on medical judgment alone as distinguished
from accepted medical principles, or on history alone
without regard to clinical factors pertinent to the basic
character, origin and development of such injury or disease. They should be based on thorough analysis of
the evidentiary showing and careful correlation of all

App. 44
material facts, with due regard to accepted medical
principles pertaining to the history, manifestations,
clinical course, and character of the particular injury
or disease or residuals thereof.
(2) History conforming to accepted medical principles should be given due consideration, in conjunction with basic clinical data, and be accorded probative
value consistent with accepted medical and evidentiary principles in relation to value consistent with
accepted medical evidence relating to incurrence,
symptoms and course of the injury or disease, including ofﬁcial and other records made prior to, during or
subsequent to service, together with all other lay and
medical evidence concerning the inception, development and manifestations of the particular condition
will be taken into full account.
(3) Signed statements of veterans relating to the
origin, or incurrence of any disease or injury made in
service if against his or her own interest is of no force
and effect if other data do not establish the fact. Other
evidence will be considered as though such statement
were not of record.
*

*

*

